Report No. D-2010-073           July 19, 2010




   Controls Over Unliquidated Obligations for
      Department of the Army Contracts
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                              ODIG-AUD (ATTN: Audit Suggestions)
                              Department of Defense Inspector General
                              400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704




Acronyms and Abbreviations
AMC
                          Army Materiel Command
AMCOM
                        Aviation and Missile Command Life Cycle Management
                                Command
ASA (FM&C)
                   Assistant Secretary of the Army (Financial
                                 Management and Comptroller)
C3
                           Command, Control, Communications
DASA (FO)
                    Deputy Assistant Secretary of the Army (Financial
                                Operations)
DFAS
                         Defense Finance and Accounting Service
FMR
                          Financial Management Regulation
PEO
                          Program Executive Office
RDECOM
                       Research, Development, and Engineering Command
SMDC/ARSTRAT
                 U.S. Space and Missile Defense Command/Army Forces
                                Strategic Command
                                  INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON , VIRGINIA 22202-4704 



                                                                                    July 19,2010

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	 Controls Over Unliquidated Obligations for Department of the Army Contracts
           (Report No . 0-2010-073)

We are providing this report for your review and use. We considered management COlmnents
on a draft of this report when preparing the final report.

Comments on the draft of this report conformed to the requirements of DOD Directive
7650.3; therefore, additional conunents are not required.

We appreciate the courtesies extended to the staff. Please direct questions to me
at (703) 601-5868.




                                             f~O /1/~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2010-073 (Project No. D2009-D000FC-0176.000)                                    July 19, 2010

                Results in Brief: Controls Over Unliquidated
                Obligations for Department of the Army Contracts

                                                                increased risk of losing funds that were not adequately
What We Did                                                     reviewed in a timely manner.
Our audit objective was to determine whether the
Department of the Army properly accounted for and               What We Recommend
deobligated unliquidated obligations on contracts               The Assistant Secretary of the Army (Financial
supporting overseas contingency operations in a timely          Management and Comptroller) should establish
manner. The line of accounting used for identifying the         guidance for all Army fund holders to perform
Army’s use of contingency operations funds was not              adequate reviews of unliquidated obligations,
reliable, and we could not identify specific contracts as       deobligate approximately $4.4 million in funds,
supporting the effort. Therefore, we evaluated the              review approximately $11 million related to
triannual review process at Army Materiel Command               obligations for which validity is unknown, conduct a
(AMC) and Aviation and Missile Command Life Cycle               preliminary review of a potential Antideficiency Act
Management Command (AMCOM), which may                           violation, and initiate actions based on the results of
include the review of some unliquidated obligation              the review.
balances on contracts supporting overseas contingency
operations.                                                     The Director, Resource Management, AMC, should
                                                                rescind its guidance on the triannual review that
What We Found                                                   conflicts with DOD’s, verify that unliquidated
Eight Army fund holders did not adequately validate and         obligations reported on confirmation statements
maintain sufficient documentation supporting their review       match the unliquidated obligations reviewed and
for 92 of 94 Army unliquidated obligations for the              certified, and establish due dates for the statements.
FY 2009 phase I and II triannual review periods. Army
triannual review guidance did not provide clear criteria        The Director, Resource Management, AMCOM,
for reviewing and validating unliquidated obligations.          should verify that the unliquidated obligations it
Also, Army fund holders did not follow the DOD                  reports match the amount reviewed, establish
guidance on maintaining supporting documentation. As a          procedures to verify that unliquidated obligations are
result, the Army had no assurance that unliquidated             retrieved for the correct dates, establish due dates for
obligations valued at approximately $125.8 million              the receipt of confirmation statements, and establish a
represented valid Army needs at the time of the reviews.        process to ensure that fund holders perform adequate
The Army should also deobligate approximately                   reviews before deobligating funds.
$4.4 million related to invalid unliquidated obligations
and review approximately $11 million for obligations for        Management Comments and Our
which validity is unknown. Additionally, the Army may           Response
have lost the use of $11.2 million in Operation and
                                                                The Deputy Assistant Secretary of the Army
Maintenance funds that were canceled. Accurate and
                                                                (Financial Operations), responding on behalf of the
timely reviews of unliquidated obligations may identify
                                                                Assistant Secretary of the Army (Financial
available funds for other needed requirements.
                                                                Management and Comptroller); the Executive Deputy
                                                                to the Commanding General, AMC, responding on
Further, AMC and its major subordinate command,
                                                                behalf of the Director, Resource Management, AMC;
AMCOM, erroneously reported and certified unliquidated
                                                                and the Deputy to the Commanding General,
obligations for Operation and Maintenance funds on the
                                                                AMCOM, responding on behalf of the Director,
FY 2009 phase I and II triannual review confirmation
                                                                Resource Management, AMCOM, agreed with the
statements. In addition, AMCOM erroneously
                                                                recommendations, and their comments were
deobligated unliquidated obligation balances for
                                                                responsive. Please see the recommendations table on
Operation and Maintenance funds. This occurred because
                                                                page ii.
AMC and AMCOM had not established internal controls
over the triannual review process. The Army is at an
                                                            i
Recommendations Table


Management                   Recommendations     No Additional Comments
                             Requiring Comment   Required
Assistant Secretary of the                       A.1, A.2, A 3, A.4, A.5,
Army (Financial                                  A.6
Management and
Comptroller)

Director, Resource                               B.1.a, B.1.b, B.1.c
Management, Army Materiel
Command

Director, Resource                               B.2.a, B.2.b, B.2.c, B.2.d,
Management, Aviation and                         B.2.e
Missile Command Life Cycle
Management Command




                                     ii
Table of Contents

Introduction                                                                    1



      Objective                                                                 1


      Background                                                                1

      Review of Internal Controls                                               2


Finding A. Fund Holder Phase I and II Reviews                                   4


      Recommendations, Management Comments, and Our Response                    8


Finding B. AMC and AMCOM Triannual Review Process                              11 


      Management Actions                                                       14 

      Recommendations, Management Comments, and Our Response                   14 


Appendices

      A		 Scope and Methodology                                                19 

      B. 	Prior Coverage                                                       21 

      C.		 DOD OIG Review Process                                              23 

      D.		 DOD OIG Results of Review of Unliquidated Obligations


           by Fund Holder                                                      24 


Management Comments

      Assistant Secretary of the Army (Financial Management and Comptroller)   25 

      Army Materiel Command                                                    28 

      Army Aviation and Missile Command                                        30 

Introduction
Objective
Our audit objective was to determine whether the Department of the Army properly
accounted for and deobligated unliquidated obligations on contracts supporting overseas
contingency operations in a timely manner. We attempted to isolate either contracts or
funds that were specifically designated as supporting overseas contingency operations.
However, neither the Army contracts nor the line of accounting reliably identified
contracts or funds supporting overseas contingency operations. As a result, we evaluated
the Army’s triannual unliquidated obligation review process, which may include the
review of some unliquidated obligations on contracts supporting overseas contingency
operations. Therefore, we removed overseas contingency operations from the audit
objective. See Appendix A for a discussion of the scope and methodology. See
Appendix B for prior coverage related to the objective.

Background
The U.S. Army Aviation and Missile Command Life Cycle Management Command
(AMCOM) is one of the major subordinate commands reporting to the Army Materiel
Command (AMC). We reviewed the AMC and AMCOM triannual review process. In
addition, we sampled unliquidated obligations related to AMCOM and seven other Army
fund holders located at Redstone Arsenal. 1 AMCOM is responsible for supporting
Redstone Arsenal fund holders that use the Standard Operation and Maintenance Army
Research and Development System (the accounting system). Unliquidated obligations
chosen for review were funded with Operation and Maintenance appropriations.

Obligation Process
An obligation is the amount of an order placed, contract awarded, or service received
during an accounting period that requires future payment. It is recorded when an
authorized agent of the Federal Government enters into a legally binding agreement to
purchase specific goods or services. The recorded obligation reduces by the amount of
payments made on bills received. The obligated balance still owed is the unliquidated
balance. When all services or goods have been received and paid for, the obligation is
considered “liquidated,” and any remaining balance should be deobligated to make the
funds available for other uses. However, funds can only be obligated in the fiscal years
for which they are available or used for adjustments to or payments of existing
obligations. Operation and Maintenance appropriations are available for obligation for
one fiscal year, available for expenditure for the next 5 fiscal years, and canceled at the
end of the fifth year after expiration of the appropriation. Canceled funds are not
available for expenditure for any reason.

1
    A fund holder is the fiscal officer of an activity or office that is issued a formal subdivision of funds.




                                                          1


Department of Defense Triannual Review Guidance
The DOD Regulation 7000.14-R, “DOD Financial Management Regulation” (DOD FMR),
Volume 3, Chapter 8, “Standards for Recording and Reviewing Commitments and
Obligations,” November 2000, implemented a triannual review process that requires fund
holders and supporting accounting offices to monitor obligations and validate all
unliquidated obligations three times a year for timeliness, accuracy, and completeness. The
fund holder, with assistance from the Defense Finance and Accounting Service (DFAS) if
requested, must verify that there is documentary evidence to support the continued need for
the obligation and any remaining funds to properly validate an unliquidated obligation. In
addition, DOD FMR, volume 3, chapter 8, requires fund holders to maintain adequate
documentation supporting those reviews for 24 months. The fund holders must also
complete a signed confirmation statement that they reviewed the accuracy and
completeness of the recorded amounts.

Army Triannual Review Guidance
DFAS Indianapolis, in coordination with the Assistant Secretary of the Army (Financial
Management and Comptroller [ASA (FM&C)]), established DFAS Indianapolis 37-1
(DFAS-IN 37-1), “Finance and Policy Implementation,” Chapter 27, May 2008, which
provides guidance for the triannual review of unliquidated obligations. DFAS-IN 37-1
requires that fund holders perform a joint review of unliquidated obligations in three
phases during the fiscal year. Specifically, fund holders must review all:

   •		 phase I transactions funded by appropriations that are expired and will cancel on
       October 1 of the next fiscal year;
   •		 phase II transactions funded by expired appropriations that will not be canceled at
       the end of the current fiscal year; and
   •		 phase III unexpired-year unliquidated obligations.

DFAS-IN 37-1 requires the fund holder to maintain supporting documentation of the
triannual review for 24 months after completion. These reviews provide the basis for the
fund holders’ certifying the full review and validation of unliquidated obligations.
Further, DFAS-IN 37-1 states that fund holders are to provide the Deputy Assistant
Secretary of the Army (Financial Operations) (DASA [FO]) statements confirming that
they conducted triannual obligation reviews. If unable to provide a confirmation
statement supporting the accuracy of reported obligations, the fund holder must provide a
full explanation and document any corrective actions taken.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for AMC and AMCOM. AMC and AMCOM did not perform adequate
oversight of the process for reporting and certifying unliquidated obligation reviews.
Implementing Recommendations B.1 and B.2 will improve the accuracy and


                                             2

completeness of the AMC and AMCOM triannual review process. In addition, AMCOM
deobligated funds without performing adequate reviews. Implementing
Recommendation B.2.e will ensure that only funds no longer required are deobligated.
Also, the Department of the Army has not issued guidance that establishes a standardized
process for the review of unliquidated obligations. Implementing Recommendation A.1
will improve the Army fund holders’ triannual review process. We will provide a copy
of the report to the senior Department of the Army official responsible for internal
controls.




                                           3


Finding A. Fund Holder Phase I and II
Reviews
Eight Army fund holders did not adequately validate and maintain sufficient
documentation supporting their review for 92 of 94 Army unliquidated obligations for the
FY 2009 phase I and II triannual review periods. Army triannual review guidance did not
provide clear criteria for reviewing and validating unliquidated obligations. Also, Army
fund holders did not follow the DOD FMR and DFAS-IN 37-1 guidance on maintaining
supporting documentation. As a result, the Army had no assurance that unliquidated
obligations valued at approximately $125.8 million represented valid Army needs at the
time of the reviews. The Army should also deobligate approximately $4.4 million related
to invalid unliquidated obligations and review approximately $11 million related to
obligations for which the validity is unknown. Additionally, the Army may have lost the
use of $11.2 million in Operation and Maintenance funds that were canceled.

Reviews by Army Fund Holders
We selected and reviewed 64 phase I and 30 phase II unliquidated obligations from the
FY 2009 AMCOM triannual review (see Appendix A for a detailed discussion of the
scope and methodology used to determine this sample). Eight Army fund holders at
Redstone Arsenal were responsible for reviewing the validity of the 94 selected
unliquidated obligations valued at approximately $125.8 million (see Appendix D).
These fund holders are:

   •		   AMCOM;
   •		   Program Executive Office (PEO) Aviation;
   •		   PEO Missile and Space;
   •		   PEO Air and Missile Defense;
   •		   PEO Command, Control, Communications (C3) Tactical;
   •		   U.S. Army Garrison-Redstone;
   •		   Research, Development, and Engineering Command (RDECOM); and
   •		   U.S. Space and Missile Defense Command/Army Forces Strategic Command
         (SMDC/ARSTRAT).

Validation of Unliquidated Obligations
The 8 Army fund holders did not perform adequate reviews to validate 92 of 94
unliquidated obligations valued at approximately $125.8 million. The reviews were
inadequate because the documentation provided did not support the validity of the
unliquidated obligation. DFAS-IN 37-1 requires the review and validation of
unliquidated obligations to verify that they are correct and in agreement with source data.
However, the DOD guidance did not include the specific steps or type of source data to
use. Because reviewers lacked guidance, the review steps varied from one fund holder to
the next, and the fund holders used inconsistent or no source data to perform the reviews.
Examples include the following.



                                             4

   •		 Reviewers at SMDC/ARSTRAT provided the confirmation statement and a report
       of the total unliquidated obligation balance to support their review; however, the
       review was inadequate. The documentation provided did not validate the
       accuracy of the obligation or disbursement amounts to independent source data,
       which would include contract modifications and disbursement histories from the
       entitlement system.

   •		 Reviewers at AMCOM provided an e-mail from the contracting specialist
       indicating the contract status and the contract modification as justification for the
       unliquidated balance. The review was inadequate because the fund holder did not
       validate the disbursement amount to independent source data.

The Army should issue standardized guidance detailing the specific steps to validate the
obligation and disbursement amounts for an unliquidated obligation. The guidance
should also indicate the type of source documents required to perform unliquidated
obligation reviews.

Maintenance of Supporting Documentation
The 8 Army fund holders did not maintain adequate documentation supporting their
FY 2009 phase I and II triannual reviews for 92 of the 94 unliquidated obligations.
DOD FMR, volume 3, chapter 8, and DFAS-IN 37-1 require the fund holders to maintain
adequate documentation supporting their reviews for 24 months. For 10 of the 92
unliquidated obligations, the fund holders did not provide documentation of their review.
For the remaining 82 unliquidated obligations, the supporting documentation provided
was inadequate because it was improper, incomplete, or dated after the fund holders
should have performed the review. The documentation would allow independent
organizations to verify that personnel properly completed the reviews. It would also
assure the Army that the unliquidated funds were still needed. The fund holders should
maintain adequate documentation to support their unliquidated obligation reviews.

Review of Unliquidated Obligations
We requested additional information from DFAS officials, contracting officials,
AMCOM Resource Management officials, and other fund holder officials to conduct an
independent review of the 94 unliquidated obligations. The review resulted in
unliquidated obligations categorized as valid, invalid, or validity unknown. In addition,
one invalid unliquidated obligation reviewed resulted in a potential Antideficiency Act
violation. See Appendix C for a general outline of the specific steps and source data we
used to perform our reviews and see Appendix D for details of our review by fund holder.

Valid
Our independent review determined that 39 of the 94 unliquidated obligations were valid.
The determination was based on a review of supporting source documents, including
obligation and disbursement transaction history reports, contract modifications,
disbursement vouchers, and billing invoices. In some cases, we contacted contracting
personnel to verify that a valid need for the funds still existed.


                                             5

Invalid
Our independent review determined that 25 of the 94 unliquidated obligations were
invalid even though the Army categorized them as valid. In addition, one of them may
have violated the Antideficiency Act. The invalid unliquidated obligations amounted to
approximately $4.4 million in recommended deobligations and approximately $408,000
in funds that were canceled. Funds that are canceled are no longer available for
disbursement, and current-year funds must be used to pay any valid claims owed to the
contractor. The following table identifies the AMCOM fund holder, contract, and
amount of unliquidated obligations identified as requiring deobligation or amount of
funds lost due to cancellation before deobligation of the funds. The Army should
deobligate approximately $4.4 million in invalid funds on three contracts.

                   Required Deobligations and Funds Canceled
 Army Fund Holder         Contract Reviewed       Amount of                               Amount of
                                                  Funds to Be                             Canceled
                                                  Deobligated                              Funds
PEO Aviation               W58RGZ06C0194            $2,281,604
PEO Aviation             W58RGZ04G00230012             734,436
PEO Missile and Space      DAJA3791H5011                                                       $168,054
AMCOM                      DASG6094C0073                                                        169,057
AMCOM                      W31P4Q04C0046                                                         65,279
AMCOM                      W31P4Q04C0099                                                          5,584
AMCOM                      W31P4Q06C0352             1,343,794
 Total                                              $4,359,834                                 $407,974

Review of Potential ADA Violation
Our review of one PEO Aviation unliquidated obligation, valued at approximately
$2.3 million, on contract W58RGZ06C0194 determined that the unliquidated obligation
was invalid because a need for the entire amount of the obligation did not exist at the
time of the initial obligation. The contracting officer provided documentation showing
that the contactor filed a claim in June 2007. In July 2007, the attorney-advisor indicated
that FY 2007 funds should be used to pay the claim. PEO Aviation personnel obligated
approximately $3.4 million in FY 2006 Operation and Maintenance funds on July 31,
2007, in anticipation of this claim. The documentation provided by the contracting
officer only supported $328,410 of the approximately $3.4 million obligation. At the
time, PEO Aviation should not have obligated approximately $3 million because that was
in excess of the estimated claim amount. The PEO’s actions violated section 1501(a),
title 31, United States Code. 2

2
 An amount should only be recorded as an obligation when supported by documentary evidence. The
obligation must be made within the appropriation’s period of availability and used for specific goods to be
delivered or services to be provided.



                                                     6

On June 12, 2007, the contractor filed the claim that was subsequently settled for
approximately $1 million. The contracting officer used obligated FY 2006 funds to pay
the claim in April 2008, leaving a remaining unliquidated obligation balance of
approximately $2.3 million. After payment of the claim, the attorney-advisor reviewed
the contract and found no issues with the amount and use of FY 2006 funds. However,
this legal review conflicted with the original advice to pay the claim using FY 2007
funds.

When we contacted PEO Aviation, the attorney-advisor said that he would investigate
whether the Government used the correct fiscal year funds to make the payment and fix
any errors found. The PEO’s actions may have violated section 1502(a), title 31, United
States Code. 3 The Army should conduct a preliminary review of the potential
Antideficiency Act violation in accordance with DOD FMR, Volume 14, Chapter 3,
“Preliminary Reviews of Potential Violations,” February 2008. In addition, the Army
should deobligate the remaining unliquidated obligation of approximately $2.3 million
and discontinue the practice of obligating funds in anticipation of claims when there is no
documentation to support the claim amount.

Validity Unknown
We could not determine the validity for 30 of the 94 unliquidated obligations, valued at
approximately $21.8 million. Sixteen of the 30 could not be validated because the
entitlement systems did not match payments to the correct contract line in the accounting
system. We could not validate the remaining 14 unliquidated obligations because
adequate supporting documentation was not provided or the Army could not provide a
knowledgeable point of contact to assist us in performing the review.
The Army may have lost the use of approximately $10.8 million in Operation and
Maintenance funds for 28 of the 30 unliquidated obligations because the funds were
canceled before the Army performed an adequate review. The Army needs to review the
2 remaining unliquidated obligation balances, valued at approximately $11 million, on
contract W31P4Q06C0256 related to PEO Aviation funds and determine whether a valid
need still exists for the obligation.

Conclusion
ASA (FM&C) had no assurance that the 8 Army fund holders located at Redstone
Arsenal adequately reviewed and validated 92 of 94 phase I and II unliquidated
obligations valued at approximately $125.8 million. By conducting an adequate review,
the fund holders might have identified nearly $4.4 million in invalid unliquidated
obligations and approximately $408,000 in invalid unliquidated obligations that were
canceled and put the funds to better use. In addition, the Army may have lost the use of
$10.8 million in funds that were canceled before it performed an adequate review.

3
 Appropriated funds can only be obligated in the fiscal years for which they are available. Funds are not
available for expenditure beyond the period of availability unless authorized by law.



                                                     7

Establishing Army guidance that identifies the specific steps and source data to use when
validating unliquidated obligations would ensure that all fund holders consistently
perform adequate reviews. This guidance would also assist the Army in identifying funds
held on invalid obligations that could be used for other Army needs. Performing
adequate reviews would also promote the most efficient use of resources by enabling the
Army to use funds before they were canceled.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller):

       1. Establish standardized guidance that includes the specific steps and types
of source data to ensure that all Army fund holders perform adequate triannual
reviews of unliquidated obligations.

ASA (FM&C) Comments
The Deputy Assistant Secretary of the Army (Financial Operations), responding on
behalf of ASA (FM&C), agreed to prepare a memorandum directing that resource
managers demonstrate that they have validated the continuing need for goods and
services in support of unliquidated obligations with the requiring activities. The
memorandum was issued on April 19, 2010.

      2. Develop a process to ensure that Army fund holders maintain adequate
supporting documentation of their reviews for 24 months as required by the DOD
Financial Management Regulation, volume 3, chapter 8, and Defense Finance and
Accounting Service-Indianapolis 37-1, chapter 27.

ASA (FM&C) Comments
The Deputy Assistant Secretary agreed to prepare a memorandum directing that the
triannual review be performed in accordance with the DOD FMR and DFAS-IN 37-1.
The memorandum will also require that obligations, obligation adjustments, and
accounting records be fully supported with proper documentation. The memorandum
was issued on April 19, 2010.

Our Response
The Deputy Assistant Secretary’s comments on Recommendations A.1 and A.2 were
responsive and conformed to requirements; no additional comments are needed.




                                           8


    3. Deobligate $4.4 million in invalid unliquidated obligations on contracts
W58RGZ06C0194, W58RGZ04G00230012, and W31P4Q06C0352.

ASA (FM&C) Comments
The Deputy Assistant Secretary agreed to direct the applicable fund holders to review
contracts W58RGZ04G00230012 and W31P4Q06C0352, determine the validity of
unliquidated obligation balances, and deobligate any invalid unliquidated balances. His
office expected to receive the results of the fund holders’ review in June 2010. In
addition, he has agreed to direct the fund holder for contract W58RGZ06C0194 to initiate
a preliminary investigation of a potential Antideficiency Act violation in accordance with
DOD FMR, volume 14, chapter 3, paragraph 030402. He issued the directive on
April 30, 2010.

Our Response
The Deputy Assistant Secretary’s comments on contracts W58RGZ04G00230012 and
W31P4Q06C0352 were responsive and conformed to requirements. In addition, the
performance of a preliminary review of a potential Antideficiency Act violation for
contract W58RGZ06C0194 would identify invalid unliquidated obligations and meet the
intent of the recommendation. No additional comments are needed.

      4. Conduct a review of the potential Antideficiency Act violation for contract
W58RGZ06C0194, initiate appropriate actions based on the results of the review,
and provide the results to us.

ASA (FM&C) Comments
The Deputy Assistant Secretary agreed to direct the fund holder for contract
W58RGZ06C0194 to initiate a preliminary review of a potential Antideficiency Act
violation in accordance with DOD FMR, volume 14, chapter 3, paragraph 030402. He
issued the directive on April 30, 2010.

       5. Establish procedures to discontinue the practice of obligating funds in
anticipation of contractor claims when there is no supporting documentation to
support the claim amount.

ASA (FM&C) Comments
The Deputy Assistant Secretary agreed to prepare a memorandum requiring that
obligations, obligation adjustments, and accounting records be fully supported with
proper documentation. The memorandum was issued on April 19, 2010.




                                            9


      6. Review two Program Executive Office Aviation unliquidated obligation
balances totaling approximately $11 million on contract W31P4Q06C0256 to
determine the validity and provide the results to us.

ASA (FM&C) Comments
The Deputy Assistant Secretary agreed to direct the applicable fund holders to review and
determine the validity of the $11 million unliquidated obligation on contract
W31P4Q06C0256. His office expected the results of the fund holders’ review in June
2010.

Our Response
The Deputy Assistant Secretary’s comments on Recommendations A.4, A.5, and A.6
were responsive and conformed to requirements; no additional comments are needed.




                                           10


Finding B. AMC and AMCOM Triannual
Review Process
AMC and AMCOM erroneously reported and certified unliquidated obligations for
Operation and Maintenance funds on the FY 2009 phase I and II triannual review
confirmation statements. In addition, AMCOM erroneously deobligated unliquidated
obligation balances for Operation and Maintenance funds. This occurred because AMC
and AMCOM had not established internal controls over the triannual review process. As
a result, the Army was at an increased risk of losing funds that were not adequately
reviewed in a timely manner. See Finding A for instances where we identified
approximately $4.4 million in funds that were available for better use by the Army and
potentially lost $11.2 million in Operation and Maintenance funds that were canceled.

AMC and AMCOM Triannual Review Reporting Process
AMC provides guidance to its major subordinate commands before each triannual
review. After receiving the guidance, AMCOM provides designated personnel 4 with a
spreadsheet of unliquidated obligations from the accounting system. These individuals
are required to provide a confirmation statement to the AMCOM Resource Management
office certifying the completion of their unliquidated obligation review. AMCOM then
provides the confirmation statement to the Director, Resource Management, AMC. AMC
consolidates the confirmation statements for all its major subordinate commands for each
phase and forwards the confirmation statement to the DASA (FO) to support its triannual
review.

AMCOM Reporting and Certifying
AMCOM erroneously reported and certified unliquidated obligations on its FY 2009
phase I and II triannual review confirmation statements. AMCOM had not established
internal controls over the triannual review process, which resulted in the erroneous
reporting of unliquidated obligations on the FY 2009 phase I and II triannual review
confirmation statements. Specifically, AMCOM did not:

    •   verify that reviewed balances matched the balances reported,
    •   ensure the receipt of confirmation statements from all designated personnel,
    •   use the correct review date for unliquidated obligation balances, and
    •   sign its confirmation statement by the required date.

Verification of Balances
AMCOM erroneously reported a phase I unliquidated obligation balance of
approximately $24.4 million on its confirmation statement. The actual dollar value of the
phase I unliquidated obligations requiring review was approximately $11.6 million,

4
 Designated personnel are the individuals from different cost centers identified by AMCOM, the fund
holder, to perform unliquidated obligation reviews.



                                                  11

approximately $12.8 million less than the $24.4 million reported on the confirmation
statement. For phase II, AMCOM erroneously reported an unliquidated balance of
approximately $13.6 million on its confirmation statement. The actual unliquidated
balance requiring review was approximately $153.6 million, or $140 million more than
what was reported. AMCOM personnel had not established internal controls to verify
that amounts reported on the confirmation statement matched the amounts the designated
personnel reported as reviewed. AMCOM should establish a process to ensure that the
phase I and II unliquidated obligation balances sent to designated personnel match those
balances reported as reviewed.

Receipt of Confirmation Statements
AMCOM erroneously reported unliquidated obligation balances as certified on the
phase I and II confirmation statements before it received all of the designated personnel
confirmation statements. AMCOM guidance requires that designated personnel provide
a confirmation statement certifying their review. However, AMCOM officials had not
established controls to ensure that all designated personnel prepared and submitted a
confirmation statement. AMCOM only required the designated personnel to sign that
they received the unliquidated balance information.

For example, four of six designated personnel did not provide a confirmation statement
supporting their phase I review. By not ensuring that it received all confirmation
statements from designated personnel, AMCOM did not ensure that all required balances
were reviewed. AMCOM officials need to establish procedures to verify the receipt of
confirmation statements from all designated personnel before providing their
confirmation statement to AMC.

Date of Phase I Unliquidated Obligation Data
AMCOM erroneously reported the wrong unliquidated obligation balance for the
FY 2009 phase I triannual review confirmation statement. DOD FMR, volume 3,
chapter 8, and DFAS-IN 37-1 require the fund holders to review unliquidated obligations
for phase I as of January 31. However, AMCOM followed AMC guidance that directed a
review of unliquidated obligations as of December 31. By using December 31, 2008,
AMCOM reviewed the incorrect balance of unliquidated obligations. The AMCOM
phase I unliquidated obligation balance as of December 31, 2008, was approximately
$11.6 million. The January 31, 2009, balance was approximately $11.4 million.
AMCOM should establish controls to ensure that it uses the correct date when retrieving
unliquidated obligations to review for each phase. In addition, AMC should rescind the
guidance that conflicts with DOD FMR and DFAS-IN 37-1.

Date of Phase II Certification
AMCOM erroneously certified unliquidated obligation balances for the phase II triannual
review after the required date of certification. AMCOM had not established internal
controls to ensure that it signed the confirmation statement before the required date.
DOD FMR, volume 3, chapter 8, and DFAS-IN 37-1 require that the fund holders sign
the confirmation statements no later than 21 days after the review. AMCOM signed its
phase II confirmation statement on June 25, 2009, which was 4 days late. AMCOM


                                            12


officials need to establish due dates for receipt of triannual reviews to enable the signing
of the confirmation statement within the required time frames.

AMC Reporting and Certifying
AMC erroneously reported validated unliquidated obligation amounts to DASA (FO) that
did not match the amounts certified by AMCOM on its FY 2009 phase I triannual review
confirmation statement. Specifically, AMC reported approximately $11.4 million in
unliquidated obligations reviewed, which was approximately $13 million less than what
AMCOM reported. This occurred because AMC personnel had not established controls
to verify that the amounts AMCOM submitted as validated matched the amounts AMC
reported to DASA (FO). AMC should establish a process to ensure that it reports the
amounts validated by its major subordinate commands on its confirmation statements to
DASA (FO).

In addition, AMC erroneously certified unliquidated obligation balances for the phase I
and II triannual reviews after the required date of certification. AMC had not established
internal controls to ensure that it signed the confirmation statement by the required date.
DOD FMR, volume 3, chapter 8, and DFAS-IN 37-1 require the fund holders to sign the
confirmation statements no later than 21 days after the review. AMC signed its phase I
confirmation statement on March 16, 2009, which was 23 days after the required deadline
for certification. AMC signed the phase II confirmation statement on July 1, 2009, which
was 10 days after the required deadline. AMC needs to establish due dates for receipt of
triannual reviews to enable the signing of the confirmation statements within the required
time frames.

AMCOM Deobligation of Unliquidated Balances
AMCOM inappropriately deobligated unliquidated obligation amounts in the accounting
system, thereby eliminating amounts that it should have reviewed. AMCOM had not
established internal controls to ensure that it adequately reviews unliquidated obligations
before deobligating them. During our review, we identified 23 instances in which
AMCOM officials deobligated approximately $8.1 million in Operation and Maintenance
funds without determining whether there was a need for the funds. In one example,
AMCOM personnel deobligated unliquidated obligations totaling $3.5 million before the
end of the FY 2009 phase I review. When asked to provide support for the deobligations,
officials indicated that there was no support. The amount was deobligated to meet AMC
goals that phase I unliquidated obligations equal zero by June 30. The unliquidated
obligations totaling $3.5 million were not included, and should have been, on the list of
unliquidated obligations requiring review for phase I.

According to the “Principles of Federal Appropriations Law,” volume II, February
2006, unliquidated obligations should not be deobligated without a valid reason, and it is
improper to deobligate funds solely to “free them up” for new obligations. If the funds
are canceled without a proper review before deobligation, AMCOM could lose the use of
the funds that it could otherwise pay to contractors. For example, for one unliquidated
obligation, AMCOM officials had to reobligate and disburse approximately $56,800 for
an additional invoice submitted after AMCOM had deobligated the funds. By


                                             13

deobligating the funds without a proper review, AMCOM would have to use current-year
funds if the contractor submitted an invoice after the funds were canceled. AMCOM
should establish controls to ensure that it performs and documents an adequate review
before any funds are deobligated from the accounting system.

Conclusion
Because of inadequate controls over the AMC and AMCOM triannual review reporting
and certification process, ASA (FM&C) lacked the necessary information to make
decisions related to the use of Army funds. Erroneous reporting could increase the risk
that funds are unavailable for other Army needs because AMC and AMCOM are not
identifying funds available for deobligation in a timely manner. For example, in Finding
A, we identified the $4.4 million in deobligations and $11.2 million in potential funds
lost. Inaccurate reporting could also lead to the erroneous conclusion that a continued
need exists for all unliquidated obligation amounts reported as reviewed. Establishing
internal controls would improve the triannual review process and allow AMC and
AMCOM to prevent the future loss of funds by identifying, in a timely manner, funds
that are no longer needed and are available for other needs.

Management Actions
AMCOM erroneously reported the phase I certification of 15 fund holders for which it
had not allocated funds and, thus, was not responsible for reporting. This occurred
because of past reporting relationships that had existed between AMCOM and the fund
holders. Army reorganizations have resulted in changes in reporting relationships, and
the triannual review reporting process had not been updated to reflect the changes.

AMCOM officials agreed to discontinue the certification of Army fund holders for which
AMCOM was not responsible. They corrected this practice when preparing the phase II
confirmation statement and removed the 15 fund holders. Therefore, we are not making a
recommendation to discontinue the certification of other Army fund holders for which
AMCOM was not responsible. We commend AMCOM officials for the actions taken.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Director, Resource Management, Army Materiel
Command:

       a. Rescind the Army Materiel Command triannual review guidance that
conflicts with the DOD guidance regarding the date of the unliquidated obligation
balances to review.

AMC Comments
The Executive Deputy to the Commanding General, AMC, responded for the Director,
Resource Management, AMC, and agreed with the intent of the recommendation. She
stated that AMC provides the guidance from ASA (FM&C) for each phase of the joint
reviews. Further, she stated that AMC did not provide information to its major


                                           14

subordinate commands that conflicts with DOD guidance. She stated that AMC would
provide internal standard operating procedures that comply with the DOD guidance for
future reviews in addition to the guidance from ASA (FM&C). The procedures were
projected to be released by June 30, 2010.

Our Response
The Executive Deputy agreed with the intent of the recommendation. AMCOM officials
had told us that they had received guidance from AMC that conflicted with the DOD
guidance. Although AMC did not agree with our recommendation to rescind the
conflicting guidance, the actions taken by the Executive Deputy, including providing
standard operating procedures that comply with the DOD guidance for future reviews,
satisfy the intent of the recommendation. Management comments were responsive to the
recommendation and conformed to requirements; no additional comments are needed.

       b. Verify that the unliquidated obligations reported on the Army Materiel
Command triannual review confirmation statements match the balance of
unliquidated obligations reviewed and certified by the Aviation and Missile
Command Life Cycle Management Command and its other major subordinate
commands.

AMC Comments
The Executive Deputy agreed, stating that AMC would work with its major subordinate
commands to verify that the unliquidated obligations reported match the balances on the
confirmation statements as well as the DFAS data. In addition, AMC officials were
developing procedures to assist commands in accurately reporting data for the triannual
review phases. The standard operating procedures were projected to be released by
June 30, 2010.

       c. Establish due dates for receipt of the triannual reviews to ensure that the
Army Materiel Command signs the confirmation statements for the Aviation and
Missile Command Life Cycle Management Command and other major subordinate
commands within the required time frames.

AMC Comments
The Executive Deputy agreed, stating that AMC would establish due dates for receipt of
the triannual review reports from its major subordinate commands to allow time for
consolidation and to ensure that confirmation statements are signed within the required
time frames. In addition, AMC ensured that all submissions for the FY 2010 Phase I
triannual review were submitted within the required time frame.

Our Response
The Executive Deputy’s comments on Recommendations B.1.b and B.1.c were
responsive and conformed to requirements; no additional comments are needed.




                                           15


B.2. We recommend that the Director, Resource Management, Army Aviation and
Missile Command Life Cycle Management Command:

        a. Establish procedures to verify that the unliquidated obligations reported
on its triannual review confirmation statements match the balance of unliquidated
obligations that were reviewed.

AMCOM Comments
The Deputy to the Commanding General, AMCOM, responding on behalf of the
Director, Resource Management agreed, stating that the unliquidated obligations balance
was manually annotated on the confirmation worksheet incorrectly. He stated that AMC
identified the error and contacted AMCOM for clarification. AMCOM provided verbal
clarification of the correct balance, but mistakenly forgot to update the worksheet. He
also stated that AMCOM officials would ensure that supporting data from the source are
properly annotated on the manual confirmation worksheets in the future. In addition,
AMCOM officials were developing a checklist that would include a check to ensure that
manual worksheets are complete and accurate. The checklist was projected to be
implemented by July 15, 2010.

Our Response
The Deputy acknowledged that AMCOM incorrectly reported unliquidated obligation
balances to AMC. During our audit, neither AMC nor AMCOM officials indicated that
the incorrect balances had been corrected. Nevertheless, the actions taken by the Deputy,
including developing a checklist to ensure that the worksheets are annotated correctly,
were responsive to the recommendation and conformed to requirements; no additional
comments are needed.

       b. Establish procedures to verify that all designated personnel have provided
confirmation statements before signing its confirmation statement for the Army
Materiel Command.

AMCOM Comments
The Deputy agreed. He stated that AMCOM provided the auditors with copies of the
phase I confirmation reviews during the audit, which showed that AMCOM had signed
the command confirmation statement before receiving the individual confirmation
statements from the designated personnel. He also stated that beginning with the
FY 2010 Phase I review, AMCOM has ensured that all designated personnel provide
signed confirmation statements before it signs its confirmation statement. In addition,
AMCOM officials were developing a roster and planned to maintain the names of those
persons designated to confirm, record, sign, and date the confirmation statements. The
roster was projected to be implemented by June 30, 2010.

Our Response
The Deputy acknowledged that AMCOM erroneously reported unliquidated obligation
balances on its confirmation statement before receiving all the individual confirmation



                                           16


statements from the designated personnel. As stated in the report, four of six designated
personnel did not submit a phase I confirmation statement. The actions taken by the
Deputy, including developing a roster that will maintain the names of those persons
designated to confirm, record, sign, and date the confirmation statements, were
responsive to the recommendation and conformed to requirements; no additional
comments are needed.

       c. Establish procedures to ensure that it uses the correct date when
retrieving unliquidated obligations to review for each triannual review phase.

AMCOM Comments
The Deputy agreed, stating that AMCOM incorrectly used the December 31, 2008,
unliquidated obligation balance instead of the January 31, 2009, unliquidated obligation
balance. He stated that this was an inadvertent mistake, which was corrected in January
2010 during the phase I review. He also stated that this was a one-time oversight that
was corrected by AMC in February 2009 before submission to the Department of the
Army. In addition, he stated that AMCOM has been following DFAS-IN Regulation
37-1 and the DOD FMR since 1997. To improve the current process, AMCOM officials
were preparing a checklist that would be used to identify the proper data sources for the
triannual reviews. The checklist was projected to be implemented by July 15, 2010.

Our Response
The Deputy acknowledged that AMCOM used the December 31, 2008, unliquidated
obligation balance instead of the January 31, 2009, unliquidated obligation balance.
DOD FMR, volume 3, chapter 8, and DFAS-IN 37-1 require the fund holders to review
unliquidated obligations for phase I as of January 31. However, AMCOM followed
guidance that conflicted with the DOD FMR and DFAS-IN 37-1. The actions taken by
the Deputy, including preparing a checklist that would be used to identify the proper data
sources for the confirmation statements, were responsive to the recommendation and
conformed to requirements; no additional comments are needed.

       d. Establish due dates for receipt of the triannual reviews to ensure that
Army designated personnel sign the confirmation statements within the required
time frame so its confirmation statement is submitted to the Army Materiel
Command in a timely manner.

AMCOM Comments
The Deputy agreed, stating that AMCOM signed the command statement before
receiving all of the confirmation statements from the designated personnel. He also
stated that the designated personnel did not meet the suspense dates set by AMCOM. He
further stated that AMCOM has implemented a new process to ensure that statements are
received by the suspense dates. Effective immediately, the Financial Management
Division Managerial Accounting Branch has established a log to track the status of the
triannual reviews.




                                            17


Our Response
The Deputy’s comments were responsive and conformed to requirements; no additional
comments are needed.

      e. Establish a review process that ensures that Army designated personnel
perform and document adequate reviews before it deobligates funds from the
accounting system.

AMCOM Comments
The Deputy agreed, stating that beginning with the FY 2010 Phase I review, AMCOM
would ensure that deobligations of unliquidated obligations were supported with proper
documentation. He stated that AMCOM has a review process which ensures that Army
designated personnel perform and document review results adequately before funds are
deobligated from the accounting system. He further stated that the review process has
been in place since 2000, in accordance with AMCOMR 37-17, “Financial
Administration, Joint Reconciliation Program.” To enhance the current process,
AMCOM officials were developing criteria and a list of records that must be retrieved
and maintained by the Financial Management Division Managerial Accounting Branch
before a deobligation is made. The criteria and list of documents were to be included in
the checklist referred to in comment B.2.a. These actions were projected to be
implemented by July 15, 2010.

Our Response
The Deputy agreed with our recommendation. He stated that AMCOM has a review
process for reviewing, documenting, and deobligating funds from the accounting system
that has been in place since September 2000. However, our review identified
23 instances for which AMCOM officials deobligated approximately $8.1 million in
Operation and Maintenance funds without determining whether there was a need for the
funds. When asked to provide support for the deobligations, officials indicated that there
was no support. The actions taken by the Deputy to improve the current process; that is,
developing criteria and a list of records that must be retrieved and maintained by the
Financial Management Division Managerial Accounting Branch before a deobligation is
made, were responsive to the recommendation and conformed to requirements; no
additional comments are needed.




                                            18


Appendix A. Scope and Methodology
We conducted this performance audit from March 2009 through February 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

The audit was to focus on the Department of the Army unliquidated obligations for
contracts supporting overseas contingency operations. However, as the audit team
attempted to identify a list of relevant contracts, AMC officials indicated that the line of
accounting does not consistently use coding to identify contracts with overseas
contingency operation funds. As a result, officials were unable to provide an all-
inclusive list of contracts supporting overseas contingency operations. Because we could
not identify overseas contingency operations contracts, we decided to review AMC’s and
AMCOM’s FY 2009 Triannual Review process, which includes the review and
certification of unliquidated obligations on contracts, some of which may support
overseas contingency operations.

Specifically, we reviewed a judgmental sample of 94 unliquidated obligations, valued at
approximately $125.8 million, on contracts with Operation and Maintenance funds from
AMCOM’s FY 2009 phase I and II triannual review files. To determine our sample, we
analyzed AMCOM’s phase I triannual review file containing 1,254 unliquidated
obligations, with a total value of approximately $28.7 million, on contracts with
Operation and Maintenance funds. We then developed a judgmental sample of 64
unliquidated obligations valued at $100,000 or more. We also analyzed AMCOM’s
phase II triannual review file containing 6,770 unliquidated obligations, with a total value
of approximately $252.5 million, on contracts with Operation and Maintenance funds.
We developed a judgmental sample of 30 unliquidated obligations representing the 10
highest unliquidated obligation balances from each of the 2nd, 3rd, and 4th expiring years.

To accomplish the audit objective, we met with the following offices and reviewed the
following data.

   •		 We contacted officials from the following offices to identify the policies and
       procedures in place for internal controls over unliquidated obligations, document
       the triannual review process, and assist in the validation of the 94 unliquidated
       obligation balances.

       o   ASA (FM&C)
       o   ASA (Acquisition, Logistics, and Technology)
       o   DFAS Indianapolis
       o   DFAS Columbus
       o   Army Budget Office
       o   AMC


                                             19

       o   AMCOM
       o   TACOM Life Cycle Management Command
       o   RDECOM
       o   PEO Aviation
       o   PEO C3 Tactical
       o   PEO Missile and Space
       o   PEO Air and Missile Defense
       o   U.S. Army Garrison-Redstone
       o   SMDC/ARSTRAT

   •		 We reviewed triannual review files, contract delivery orders, contract
       modifications, vouchers, Standard Operation and Maintenance Army Research
       and Development System transaction history reports, Mechanization of Contract
       Administration Services reports, and Computerized Accounts Payable System
       reports to determine whether the fund holders responsible for reviewing the
       94 unliquidated obligations during the triannual review followed DOD guidance
       and whether the amounts were valid.

   •		 We reviewed applicable laws and regulations, including DOD FMR and
       DFAS-IN 37-1, to determine the procedures for performing triannual reviews and
       to identify supporting documentation requirements.

Use of Computer-Processed Data
To perform this audit, we used data that originated from the Standard Operation and
Maintenance Army Research and Development System, the primary AMC financial
accounting system. We used these data to determine the sample of unliquidated
obligations for our review and to determine the validity of the 94 unliquidated obligation
balances. We compared these data amounts to source system data and source documents,
such as contract delivery orders, contract modifications, vouchers, and voucher lists.

The source systems included the following entitlement and data storage systems:

   •		 the Mechanization of Contract Administration Services and Computerized
       Accounts Payable System, which are entitlement systems that provide information
       on obligation and expenditure amounts;
   •		 the Electronic Document Access system, which stores contracts, contract orders,
       and contract modifications; and
   •		 the Shared Data Warehouse system, which provides a database environment
       where shared, standardized, and cross-functional contracting data are available to
       DOD.

Our assessment indicated that data within the Standard Operation and Maintenance Army
Research and Development System were sufficiently reliable for the purpose of our
review.




                                           20

Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DOD IG), the Special Inspector General for Iraq
Reconstruction (SIGIR), and the Army Audit Agency (AAA) have issued 13 reports
discussing topics related to unliquidated obligations and triannual reviews. Unrestricted
GAO reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
DOD IG reports can be accessed at http://www.dodig.mil/audit/reports. Unrestricted
SIGIR reports can be accessed at http://www.sigir.mil. Unrestricted Army reports can be
accessed from a .mil domain over the Internet at https://www.aaa.army.mil/.

GAO
GAO Report No. 09-233R, “Global War on Terrorism: Reported Obligations for the
Department of Defense,” December 15, 2008

DOD IG
DOD IG Report No D-2009-117, “Controls Over Air Combat Command and Pacific Air
Forces Unliquidated Obligations from Department of the Air Force Contracts Supporting
Contingency Operations,” September 29, 2009

DOD IG Report No. D-2009-067, “Controls Over Air Force Materiel Command
Unliquidated Obligations on Department of the Air Force Contracts Supporting the
Global War on Terror,” April 3, 2009

DOD IG Report No. D-2009-058, “DOD Cost of War Reporting of Supplemental Funds
Provided for Procurement and Research, Development, Test, and Evaluation,”
February 27, 2009

DOD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund in
Southwest Asia - Phase III,” November 30, 2007

DOD IG Report No. D-2008-027, “Air Force Use of Global War on Terrorism (GWOT)
Supplemental Funding Provided for Procurement and Research, Development, Test, and
Evaluation,” November 21, 2007

DOD IG Report No. D- 2006-085, “Vendor Pay Disbursement Cycle, Air Force General
Fund: Funds Control,” May 15, 2006

SIGIR
SIGIR Report No. 07-011, “Controls Over Unliquidated Obligations in the Iraq Relief
and Reconstruction Fund,” October 23, 2007

AAA
AAA Report No. A-2008-0209-FFH, “Supplemental Funding for the Global War on
Terrorism Summary Report,” August 6, 2008


                                           21

AAA Report No. A-2008-0165-FFH, “FY07 Supplemental Funding for the Global War
on Terrorism, U.S. Army Medical Command,” June 18, 2008

AAA Report No. A-2007-0039-FFP, “Global War on Terrorism Supplemental Funding,
Tripler Army Medical Center,” December 21, 2006

AAA Report No. A-2007-0033-FFH, “Medical Funding for the Global War on
Terrorism, U.S. Army Medical Command,” December 7, 2006

AAA Report No. A-2006-0081-ALL, “Audit of Unliquidated Obligations, Audit of
Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” March 17, 2006




                                        22


Appendix C. DOD OIG Review Process
The Army fund holders could not provide adequate supporting documentation of their
FY 2009 phase I and II unliquidated obligation reviews. Thus, we performed an
independent review of those obligations to determine whether the amounts were accurate
and a valid need still existed for the funds. We performed the following steps for each
unliquidated obligation reviewed.

1. To determine the accuracy of unliquidated obligation amounts, we:

   a.		 Compared the Standard Operation and Maintenance Army Research and
        Development System obligation transaction history to the contract order and
        modifications for the specific contract line in which the funds were obligated to
        determine whether the recorded obligation amount was accurate.

   b.		 Compared the Standard Operation and Maintenance Army Research and
        Development System recorded disbursements for the line item to the recorded
        disbursement transactions in the entitlement system by obtaining a disbursement
        report for the line item from the entitlement system.

   c.		 Determined the unliquidated obligation balance by subtracting the total of the
        disbursements from the total obligation amount.

   d.		 Requested copies of the disbursement vouchers from the accounting office if we
        identified different amounts.

2. To determine whether a continued need for the funds existed, we:

   a.		 Reviewed the period of performance for the line item to determine whether work
        was complete or ongoing.

   b.		 Determined the last activity on the line item to see whether any disbursements,
        additional obligations, or deobligations had taken place in the last 120 days.

   c.		 Contacted contracting officials if no activity had occurred to determine whether
        billing was complete or any modifications had been issued extending the
        performance date or deobligating the remaining funds. If contracting officials
        determined funds were still needed, then the line item was still active and
        supported a continued need.




                                            23


Appendix D. DOD OIG Results of Review of
Unliquidated Obligations by Fund Holder
                                                               Number
  Army                                                                                                  Amount of
  Fund            Number             Amount                               Validity       Amount to      Canceled
  Holder          Reviewed          Reviewed       Valid      Invalid     Unknown        Deobligate      Funds*
SDMC/                1              $5,763,137       1
ARSTRAT
Army                  4              2,658,038        1          1            2
Garrison-
Redstone
PEO                  35             60,851,123       15          7            13         $3,016,040
Aviation
PEO C3                7              2,582,984                   4            3
Tactical
PEO                   5             12,203,977        5                                                    $168,054
Missile &
Space
PEO Air &             5              3,972,555        2          3
Missile
Defense
AMCOM                26             31,957,943        9          8            9            1,343,794        239,920
RDECOM               11              5,780,457        6          2            3
  Total                94         $125,770,214       39          25             30        $4,359,834       $407,974
* Funds that remained obligated on these unliquidated obligations were canceled on September 30, 2009, and no
longer available for disbursement. Invoices received for these contracts after September 30, 2009, must be paid using
current-year funds.




                                                    24


Assistant Secretary of the Army (Financial Management
and Comptroller) Comments

                                                                                                 Final Report
                                                                                                  Reference



                                   DEPARTMENT OF THE ARMY
                             OfFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                FINANCIAL. MANAGEMENT AHD COMPTROLLER
                                            101 ARMY PENTAGON
                                       WASHINGTON DC 20310-01011

                                             MAR 24 1010




      MEMORANDUM THRU Auditor General, Department of the Army, 3101 Park Center
      Drive, Alexandria, Virginia 22302-1596

      FOR Inspector General, Department of Defense, Defense Business Operations, 400
      Army Navy Drive, Arlington, Vi rginia 22202-4704

      SUBJECT: Controls Over Unliquidated Obligations for Department of the Army
      Contracts (Project No. D2009-DOOOFC-0176.000)


      1. We appreciate the opportunity to comment on subject report . The attachment
      provides our comments to your recommendations,

      2. The Army leadership takes the Tri-Annual Review process and controls over
                                 Click to add JPEG file
      unliquidated obligations seriously and we will continue to follow and emphasize the
      requirements as specified in the Department of Defense Financial Management
      Regulation (DODFMR) and DFAS Regulation 37-1. As such, the Assistant Secretary of
      the Army for Financial Management and Comptroller (ASA(FM&C)) will take the actions
      specified in the attachment to this memorandum in order to meet the recommendations
      and improve controls over unliquidated obligations as provided in your report.

      3. The DoD IG should however, modify the report to reflect the limited scope of the      Revised-Results in
      audit and the command audited. The report makes generalizations and conclu sions as
                                                                                               Brief
      to "the overall unliquidated obligation process,· and indicates, "the internal control
      weakness existed in the Army Triannual review process.- Since the report was based
      on a targeted sample of limited size and population from a single Army subord inate
      command. recommend you not characterize you r findings as Army-wide issues.




      Attachment                   .
                                       Deputy
                                                ~rod
                                                ~:cre
                                                                    e
                                                                    of the Army
                                                (Fin ancial Operations)
Department of the Army's Response to DODIG Audit of Controls Over
Unliquidated Obligations for Department of the Army Contracts: Project No.
D2009-DOOOFC-0176.000

DODIG Recommendations:

A   We reoommend that the Assistant Secretary of the Army (Financial
    management and Comptroller):

    1. Establish standardized guidance thai includes the specific steps and types
       of source data to ensure that all Army fund holders perform adequate
       triannual reviews of unliquidated obligations.

    2. Develop a process to ensure that Army fund holders maintain adequate
       supporting documentation of their reviews for 24 months as required by the
       DOD Financia l Management Regulation, volume 3, chapter 8, and Defense
       Finance and Acoounting Service-Indianapolis 37-1, chapter 27.

    3. Deobligate $4.4 million in invalid unliquidated obligations on contracts
                          Click to add JPEG file
       W58RGZ06C0194, W58RGZ04G00230012, and W31P4Q06C0352.

    4. Conduct a review of the potential Antideficiency Act violation for oontract
       W58RGZ06C0194, inftiate appropriate actions based on Ihe results of the
       review, and provide the results to us.

    5. Establish procedures to discontinue the practice of obligating funds in
       anticipation of contractor claims when there is no supporting documentation
       to support the claim amount.

    6. Review two Program Executive Office Aviation unliquidated obligation
       balances totaling approximately $11 million on contract W31 P4Q06C0256
       to determine the validity and provide the results to us.

Management Response to recommendations:

For recommendations A.1, A2 , and A5 , by April 30, 2010, the office of the
Assistant Secretary of the Army (Financial Management and Comptroller) (ASA­
FM&C) will prepare a memorandum to Army commands directing that:

    a. Triannual Review is to be performed in acoordance with the DOD Financial
       Management Regulation and DFAS-IN 37-1 .




                                                      26
   b. Resource Managers demonstrate they have validated the continuing need
      for goods and services supported by unliquidated obligations with requiring
      activities as part of the Triannual Review.

   c. Obligations and obligation adjustments must be supported with proper
      documentation.

   d. Accounting records need to be properly supported.

For recommendation A.3, by April 30, 2010, the office of the ASA (FM&C) will
direct the applicable fund holder(s) to review contracts W5BRGZ04G00230012,
and W31 P4Q06C0352, determine the validity of unliquidated obligation balances,
and deobligate any invalid unliquidated balances.

For recommendation A.4, by March 31, 2010, the office of the ASA (FM&C) will
direct the fund holder for contract W5BRGZ06C0194 to initiate a preliminary
investigation of a potential ADA violation in accordance with Volume 14, Chapter
3, paragraph 030402, of the DOD FMR.

                         Click to add JPEG file
For recommendation A.6 , by April 30, 2010, the office of the ASA (FM&C) will
direct the fund holder to review and determine the validity of the $11 million
unliquidated balance on contract W31P4Q06C0256.




                                                    27
Army Materiel Command Comments






                                      DEPARTMENT OF THE ARMY
                                HEADQUARTERS, U.S. ARMY MATERIEL COMMAND
                                             0301 CHAPEK ROAD
                                        FORT BELVOIR, VA 220e0.5527


                                                                                2 1 MAY ZIllO
      AMCIR


      MEMORANDUM FOR USAAA, ATfN: • • • • • 310 1 Park Center Drive, Alexandria,
      VA 22302-1596

      SUBJECT: Command Comments, DODIG Draft Report, Controls Over Unliquidated
      Obligations for Department of the Anny Contracts, February 16, 2010 (D2009-DOOOFC-
      0176.000) (00930)

      I. The U.S . Anny Materiel Command (AMC) has reviewed the subject draft report and has
      enclosed comments to Recommendations B.l.a to B.l .c. AMC has also reviewed comments
      provided by U.S. Army Aviation and Missile Command (AMCOM) Life Cycle Management
      Command for Recommendations 8 .2.a to B.2.e. AMC endorses AMCOM ' s comments

      2. The AMC point ofcontaci is • • • • • • • • • • • • • • • • • • • • •


                                Click to add JPEG file
      End
                                                   ~4~~  Commanding General




                                      Printed on   *   Recycled Paper
The U.s. Army Material COlllllUlDd CommeDb OD DoDIG Draft Report
  OD CODtrob Over UDllqultlated ObligatioDS for DepartmeDt of tbe
        Army CODtraea, Project No. DZ()(J9-DOOOFC-4176.000

R.............datI.. 8.1 . We r=>lIIlD<2>d that the Director. Rcsoun:e M_en~ Anny
Materiel Command:

a. Rescind the Anny Mlteriel Coumumd triannual review guidance that cooflicts wilb the
000 guidance regarding the date of the unliquidated obUption hal_ to review.

COMMENTS: Concur with IntenL The Anny Materiel Cornmond (AMC) provides the
guidanoc provided by Assistant Sccmary of the Anny (Financiol MaMg_en! and
Comptroller) (ASA (FMC) for each pItuc of the joint reviews. For the 31 January 2009
Phuc I ""luiremcnts, this ASA (FMC) guidance was provided to the Aviatioo and
Missile Command Ufe Cycle Maoagcmcot Comnw>d as wcll as oil ofour olber major
subordinate comnw>ds. We did not provide lilY information that conflicted wilb DoD
guidance, th...foro, we cannot formally rescind guidance we did not publi>b. In Ibe
future we will continue to provide guidance provided by ASA (FMC) and aa we develop
int<mal Standard Operating Procedures (SOP), ensure that Ibey comply with DoD
rcquircmc:ots. AMC SOP is eutteDtly in draft fonn with a projo::ted release date of 30
June 2010.

                         Click to add JPEG file
b. Verify that !be unliquidated obligations _ e d on Ibe Anny Materiel Command
triannual review confirmation statements match the balance of unliquidated obligations
reviewed and certified by the Aviation and Missile Command Ufe Cycle M....gcrncnt
Command and its other major subordinate commands.

COMMENTS: Concur. The Anny Materiel Command (AMC) will work wilb !be
Aviation and Missile Command Ufe Cycle M _ c n t Comnw>d and OlD" olber majoe
subordinate oortunands to verify that unliquidated obligations reported match the
bolan= on confumation statements as well as tie back to Ibe DFAS Columbus 218 data.
To further reinforce this reconciliation process. AMC is c:urrectJy developing an SOP to
assist comnw>ds and the AMC in lIAlI:UBlCly rope>rtrng data for tbcsc triannual review
pItucs. The SOP bas • projected release date of30 June 2010.

c. Establish due dates for receipt ofthe triannual reviews to ensure that the Army
Materiel ComDWld signs the confumation statements fOl' the Aviation and Missile
Command Life Cycle ManagcmCllt Command and other major subordinate commands
within the ""luired time fram...

COMMENTS: Concur: The Anny Materiel Comnw>d (AMC) will establish due dates
for receipt of the triannual reviews reports from A viltion and Missile Command Life
Cycle Management CommaDd and other major subordinate commands 10 allow time for
consolidation and to ensure that confirmation statements are signed within the required
time frames. AMC is currently providing additional ovcmght and for Phase I DA JRP
for FY 2010 ( Jan 2010) oil submissions were submitted within !be ""luired time frame.




                                                        29
Army Aviation and Missile Command Life Cycle
Management Command Comments




                                     DEPARTMENT OF THE ARMY
                            UNITED STATU ARMY AVlATlOH AND IIIISSILE COMMAND
                                 REDSTONE ARSEHAl, ALAB.t.MA 3581&&000




          AMSAM·IR                                                                I 8 MAY lJJI

          MEMORANDUM THRU                          , Director, Internal Review and Audit
          Compliance Office (lRACO) , 9301 Chapek Road. Fort Belvoir, VA 22060-5527

          FOR Department of Defense. Office of Inspet;tor General, 400 Army Navy Drive,
          Arlington, VA 22202-4704

          SUBJECT: DOmo Draft Report on Controls Over Unliquidated Obligations for
          Department of the Army Contracts (Proje<:1 No. D2009·DOOOFC~ 176.000) (AMC
          00930) (AMCOM 2009L037D)


          1. Refmnce e-mail. 17 Feb 10. subject. DODIG Draft Report: Controls Over
          Unliquidated Obligations for Department of the Amy Contracts (Project No.
          D2009FC·(1176.000)

         2. The US Army Aviation and Missile Life Cycle Management Command (AMCOM)
         comments 10 the subject report are enclosed.

                                 Click to add JPEG file



         Enel                                R'i!t:c!JU -
                                              Deputy to the Commanding General
        Aviation and Missile Life Cycle Management Command (AMCOM) Comments on
        tbe Draft DoD IG Report: Controls Over UnUquldated ObUgatloDS for Department
              of the Army Comtncts, (Project No. D2009-DOOOFC-0176.000)

The DODIG recommended that the Director, Resource Management, AMCOM address
five areas. As an overall note, there are many commands coUocated with AMCOM at
Redstone Anenal; however, tbey do not come under our command and control, nor that of
AMC. In particular, PEO Missile and Space and PEO Aviation identified 10 the audit
report beloog to ASA(ALT) and not to AMCOM. AMCOM G8 is dedicated to ensuring
tbe objectives of tbe triaonual review are met and welcome the opportuoity to respond, and
provide tbe command responses below:

8.2 Recommendation: We recommend that the Director, Resource Management, US Anny
Aviation and Missile Command Life Cycle Management Command:

   3 . Establish procedures to verify that the unliquidated obligations reported on its triannual
review confinnation statements match the balance of unliquidated obligations that were
reviewed.

        Command Response: Concur. When preparing the documentation for a JRP review, the
ULO balance was manually annotated on the summary worksheet incorrectly. AMC G8
                               Click to add JPEG file
identified the error and contacted AMCOM G8 for clarification. AMCOM G8 provided verbal
confinnation of the correct balance; however, mistakenly forgot to update the manual worksheet.
Although the manual summary sheet was incorrect, the supporting documentation had the correct
balance. The supporting data has been pulled from a system called Document Direct, which has
been in place since January 1998. Data is run six times a year, creating three separate snapshots
from SOMARDS, referred to and used in the JRP, as phases (Phases I, n and Ill). Data is
available for use by managers and fund holders during each phase. We will ensure data from the
source is properly annotated on the manuaJ worksheets in the future. AMCOM G8 is preparing a
check list that will include a check of the manual worksheets fOT completeness and accumcy. Thi s
checklist will be prepared, coordinated, published , and fully implemented by 15 July 2010. This
appears to be a one·time occurrence and not a systemic problem, previous/subsequent reviews
have been correct.

    b. Establish procedures to verify that all designated personnel have provided confinnation
statements before signing its confinnation statement for the Anny Materiel Command.

       Command Response: Concur. During the DODiG visit to AMCOM G8 in June/July
2009, the auditors were provided copies of the Phase I confinnation statements, as requested.
Based on this review, it was identified that AMCOM G8 signed the command confinuation
statement before receiving the individual confirmation statements from the POEs. Beginning
with Phase I, Feb 2010, AMCOM ensured all designated personnel provided signed confinnation
statements before the G8 signed the command confinnation statement for AMCOM . The
AMCOM G8 has personnel assigned and responsible for a designated manager/fund holder to
ensure that each manager/fund holder returns the required confinnation statement before the due




                                                                 31
date. In addition, AMCOM 08 is preparing and will maintain a roster with the names of those
persons designated to conti nn, record, sign, and date their respective AMCOM POEs
confinnation statements. This new proced ure shall be implemented by 30 June 201 O.

 c. Establish procedures to ensure that it uses the correct date when retrieving unliquidated
obligations to review for each triannual review phase.

       Command Response: Concur. AMCOM incorrectly used the 31 December 2008 ULO
balance instead of the 3 1 January 2009 ULO balance. This was an inadvertent mistake, which
was corrected in January 2010 during the Phase I Review; however, the correct data pulls were
used for subsequent triannual reviews in 2009. AMC was able to identify the error quickly
because of the monthly AMC JRP review process and reported the disconnect to AMCOM. This
error was a one-time oversight that was corrected by AMC in Feb 2009 prior to submission to
DA. Although a one-time oversight, AMCOM G8 has been following OFAS-IN Regulation 37­
I and DODFMR since 1997. However, to enhance this process and to prevent future mistakes,
AMCOM 08 is preparing a checklist that will be used to identify the proper data sources. This
checklist will be prepared, coordinated, published, and fully implemented by 15 July 2010.

   d. Establish due dates for receipt of the triannua l reviews 10 ensure that Army designated
personnel sign the confi nnation statements within the required time frame so its confinnation
statement is submitted to the Anny Materiel Command in a timely manner.

                               Click to add JPEG file
        Command Response: Concur. AMCOM 08 signed the command confinnation statement
before receiving all ofthe individual confinn ation statements from the POEs (addressed in B.b.
above), because the POEs did not meet the suspense set by AMCOM . To ensure the individual
confinnation statements are received by the suspense dates AMCOM has implemented a new
process. Effective immediately, the AMCOM 08. Financial Management Division Managerial
Accounting Branch shall prepare, establish and implem ent a LOG to use for tracking the status
of the tri·annual reviews.

   e. Establish a review process that ensures that Anny designated personnel perfonn and
document adequate reviews before it deobligates funds from the accounting system.

        Command Response: Concur. Beginning with Phase I Feb 2010, AMCOM will ensure
de·obligations of un-liquidated obl igations (ULOs) are supported with proper documentation.
AMCOM has a review process which ensures that Anny designated personnel perfonn and
document review results adequately before funds are deobligated from the accounting system. It
has been in place since calendar year 2000 lAW AMCOMR 37·17, Financial Administration,
Joi nt Reconciliation Program, 2 1 September 2000 (previously provided to the audit team).
HowevCT', to enhance this process, AMCOM 08 will include in the checklist referred to in
Command Comment B.2.a criteria and a list of the records that must be retrieved and maintained
by the AM COM G8, Financial Management Division Managerial Accounting Branch before a
deobligation is made for making funds available for other use.




                                                                32
